July 18, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Pennsylvania Claimed Medicaid Administrative Costs for Provider Training
                Under Its Restraint Reduction Initiative (A-03-11-00209)


Attached, for your information, is an advance copy of our final report on our review of
Pennsylvania’s claimed Medicaid administrative costs for provider training under its Restraint
Reduction Initiative. We will issue this report to the Pennsylvania Department of Public Welfare
within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at
Stephen.Virbitsky@oig.hhs.gov. Please refer to report number A-03-11-00209.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION III
                                                                P UBLIC L EDGER B UILDING , S UITE 316
                                                                   150 S. I NDEPENDENCE M ALL W EST
                                                                             P HILADELPHIA , PA 19106
July 24, 2012

Report Number: A-03-11-00209

Ms. Karen K. Deklinski
Deputy Secretary for Administration
Pennsylvania Department of Public Welfare
P. O. Box 2675
Harrisburg, PA 17105-2375

Dear Ms. Deklinski:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Pennsylvania Claimed Medicaid Administrative Costs for
Provider Training Under Its Restraint Reduction Initiative. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Robert Baiocco, Audit Manager, at (215) 861-4486 or through email at
Robert.Baiocco@oig.hhs.gov. Please refer to report number A-03-11-00209 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 – Ms. Karen K. Deklinski


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  PENNSYLVANIA CLAIMED
 MEDICAID ADMINISTRATIVE
COSTS FOR PROVIDER TRAINING
   UNDER ITS RESTRAINT
   REDUCTION INITIATIVE




                       Daniel R. Levinson
                        Inspector General

                           July 2012
                         A-03-11-00209
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public Welfare
(State agency) administers the Medicaid program.

Section 1903(a) of the Act permits States to claim Federal reimbursement for Medicaid
administrative costs. These costs must be “for the proper and efficient administration of the State
plan.” In a December 1994 letter to State Medicaid directors, CMS (formerly the Health Care
Financing Administration) clarified its position on State claims for administrative costs, stating
that “allowable claims … must be directly related to the administration of the Medicaid
program.” CMS’s letter included a listing of allowable administrative activities. The list was
not all inclusive, but stated that claims for administrative costs cannot “reflect the cost of
providing a direct medical or remedial service, such as immunizations or psychological
counseling” and “may not include the overhead costs of operating a provider facility, such as the
supervision and training of providers.” In State fiscal year (FY) 2010–2011, the State agency
claimed $924 million in Medicaid administrative costs, of which $654 million was claimed as
“Other Financial Participation.” We are conducting a series of audits that address unidentified
Medicaid administrative costs claimed as Other Financial Participation.

The Omnibus Budget Reconciliation Act of 1987 created national standards of care for nursing
home residents. Implementing regulations (42 CFR part 483) established quality-of-life rights,
including freedom from physical restraints imposed for discipline or convenience and not
required to treat the resident’s medical symptoms (42 CFR § 483.13(a)). In 1996, Pennsylvania
launched its Restraint Reduction Initiative (the Initiative) to train nursing home providers to
reduce the use of physical restraints in compliance with the Federal regulations. The Initiative
subsequently introduced provider training to address other quality-of-life issues in nursing
homes. Kendal Outreach, LLC (Kendal), supplies the provider training.

In State FY 1996–1997, Pennsylvania began claiming Initiative costs as Medicaid administrative
costs on Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program. For State FYs 1996–1997 through 2010–2011, the State agency claimed
$6,001,929 ($3,001,536 Federal share) in Initiative costs as Medicaid administrative costs.

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal requirements
when it claimed Medicaid administrative costs for the Initiative.




                                                 i
SUMMARY OF FINDING

The State agency did not comply with Federal requirements when it claimed Initiative costs. The
claimed costs were for training nursing home providers and not for the administration of the
Medicaid program. Accordingly, the State agency’s claims totaling $6,001,929 ($3,001,536
Federal share) in Initiative costs for State FYs 1996–1997 through 2010–2011 were unallowable.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $3,001,536 in Federal funds for unallowable Initiative costs,

   •   refund the Federal share of unallowable Initiative costs claimed after our audit period,
       and

   •   discontinue all future claims of Initiative costs.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our report, the State agency said that the Initiative costs were directly
related to the administration of the Medicaid program and therefore were allowable Medicaid
administrative costs. The State agency’s comments are included in their entirety as Appendix B.

Based on our review, Initiative costs were for training nursing home provider staff and not costs
to administer the Medicaid program. CMS explicitly prohibits claiming provider training as
administrative costs. Nothing in the State agency’s comments caused us to change our
recommendations.




                                                  ii
                                                   TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION..............................................................................................................1

     BACKGROUND ...........................................................................................................1
       Medicaid Program ....................................................................................................1
       Pennsylvania Restraint Reduction Initiative ............................................................1
       Audits of the State Agency’s Medicaid Administrative Costs ................................2

     OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
       Objective ..................................................................................................................2
       Scope .......................................................................................................................2
       Methodology ............................................................................................................2

FINDING AND RECOMMENDATIONS .......................................................................3

     FEDERAL REQUIREMENTS ......................................................................................3

     UNALLOWABLE INITIATIVE COSTS CLAIMED ..................................................3

     RECOMMENDATIONS ...............................................................................................4

     STATE AGENCY COMMENTS AND
      OFFICE OF INSPECTOR GENERAL RESPONSE .................................................4

APPENDIXES

     A: PENNSYLVANIA RESTRAINT REDUCTION INITIATIVE
         EXPENDITURES AND CLAIMED FEDERAL SHARE

     B: STATE AGENCY COMMENTS




                                                                      iii
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public Welfare
(State agency) administers the Medicaid program.

Section 1903(a) of the Act permits States to claim Federal reimbursement for Medicaid
administrative costs. These costs must be “for the proper and efficient administration of the State
plan.” Most Medicaid administrative costs are reimbursed at the 50-percent rate (section 1903(a)(7)
of the Act). However, the State agency may receive enhanced Federal funding for some
administrative costs. States claim medical assistance and administrative costs on Form CMS-64,
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program (Form CMS-64).

In a December 1994 letter to State Medicaid directors, CMS 1 clarified its position on State
claims for administrative costs, stating that “allowable claims … must be directly related to the
administration of the Medicaid program.” CMS’s letter provided a list of allowable
administrative activities, but it was not all inclusive. The letter also stated that claims for
administrative costs cannot “reflect the cost of providing a direct medical or remedial service,
such as immunizations or psychological counseling” and “may not include the overhead costs of
operating a provider facility, such as the supervision and training of providers.”

Pennsylvania Restraint Reduction Initiative

The Omnibus Budget Reconciliation Act of 1987 created national standards of care for nursing
home residents. Implementing regulations (42 CFR part 483) established quality-of-life rights.
These rights include freedom from physical restraints imposed for discipline or convenience and
not required to treat the resident’s medical symptoms (42 CFR § 483.13(a)).

In September 1996, Pennsylvania launched its Restraint Reduction Initiative (the Initiative) to
train nursing home providers to reduce the use of physical restraints in compliance with Federal
regulations. The Initiative subsequently expanded to include training for providers to address
other quality-of-life issues in nursing homes, including the proper levels of medication and
chemicals administered to residents, fall management and prevention, pressure ulcer prevention,
and caring for residents with dementia. Kendal Outreach, LLC (Kendal), supplies the provider
training.

1
    The letter was issued by the Health Care Financing Administration, which was renamed CMS on July 1, 2001.



                                                         1
In State fiscal year (FY) 1996–1997, Pennsylvania began claiming Initiative costs as Medicaid
administrative costs on Form CMS-64.

Audits of the State Agency’s Medicaid Administrative Costs

In State FY 2010–2011, the State agency claimed $924 million in Medicaid administrative costs,
of which $654 million in unidentified costs were claimed as “Other Financial Participation.”
This is the third report to address the State agency’s claims for Medicaid administrative costs
claimed as Other Financial Participation. The first two reports 2 identified two Pennsylvania
Department of Aging programs for which the State agency did not comply with the Federal
requirements when it claimed administrative costs under the Medicaid program.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal requirements
when it claimed Medicaid administrative costs for the Initiative.

Scope

We reviewed the State agency’s claims totaling $6,001,929 ($3,001,536 Federal share) in
Initiative costs for State FYs 1996–1997 through 2010–2011 (Appendix A). We did not review
the overall internal control structure of the State agency. We limited our review to those controls
related to the State agency’s methodology for claiming Initiative expenditures.

We performed our fieldwork at the State agency in Harrisburg, Pennsylvania, in August and
October 2011 and at Kendal in Kennett Square, Pennsylvania, in September 2011.

Methodology

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance, and the Medicaid State plan;

    •   interviewed Kendal officials to gain an understanding of the Initiative;

    •   reviewed State agency records of Kendal’s Initiative expenditures and compared those
        expenditures to the State agency claims; and

    •   discussed our findings with CMS and State agency officials.



2
 Review of Medicaid Administrative Costs Claimed for the Pennsylvania Department of Aging’s Healthy Steps
Program (A-03-10-00205) and Review of Medicaid Administrative Costs Claimed for the Pennsylvania Department
of Aging’s Direct Care Worker Initiative (A-03-10-00206).


                                                     2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

The State agency did not comply with Federal requirements when it claimed Initiative costs. The
claimed costs were for training nursing home providers and not for the administration of the
Medicaid program. Accordingly, the State agency’s claims totaling $6,001,929 ($3,001,536
Federal share) in Initiative costs for State FYs 1996–1997 through 2010–2011 were unallowable.

FEDERAL REQUIREMENTS

Section 1903(a) of the Act permits States to claim Federal reimbursement for Medicaid
administrative costs. These costs must be “for the proper and efficient administration of the State
plan.” CMS’s December 1994 letter to State Medicaid directors (#122094) clarifies CMS’s
policy concerning State claims for administrative costs. CMS states: “We have consistently
held that allowable claims under this authority must be directly related to the administration of
the Medicaid program.”

Although not all inclusive, CMS’s list of allowable Medicaid administrative activities provided
for Medicaid eligibility determinations, Medicaid outreach, prior authorizations for Medicaid
services, third-party liability activities, and utilization reviews. CMS also stated that allowable
administrative costs “cannot reflect the cost of providing a direct medical or remedial service,
such as immunizations or psychological counseling” and “may not include the overhead costs of
operating a provider facility, such as the supervision and training of providers.”

UNALLOWABLE INITIATIVE COSTS CLAIMED

The State agency’s claims did not reflect administrative costs as defined in the Act and later
clarified by CMS in its letter to State Medicaid directors. Rather, Initiative costs were for
training nursing home provider staff to improve the condition of nursing home residents. The
provider training activities targeted reduction in the use of restraints, medication and chemical
reduction, fall management and prevention, and pressure ulcer prevention and promoted the
dignity of those suffering from dementia. CMS explicitly prohibits claiming costs for provider
training, such as that supplied by Kendal for the Initiative, as administrative costs because they
are not “for the proper and efficient administration of the [Medicaid] State plan.”

For State FYs 1996–1997 through 2010–2011, the State agency improperly claimed $6,001,929
($3,001,536 Federal share) as Medicaid administrative costs for the Initiative.




                                                 3
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $3,001,536 in Federal funds for unallowable Initiative costs,

   •   refund the Federal share of unallowable Initiative costs claimed after our audit period,
       and

   •   discontinue all future claims of Initiative costs.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our report, the State agency said that the Initiative costs were directly
related to the administration of the Medicaid program and were therefore allowable Medicaid
administrative costs. The State agency’s comments are included in their entirety as Appendix B.

Based on our review, Initiative costs were for training nursing home provider staff and not costs
to administer the Medicaid program. CMS explicitly prohibits claiming provider training as
administrative costs. Nothing in the State agency’s comments caused us to change our
recommendations.




                                                  4
APPENDIXES
APPENDIX A: PENNSYLVANIA RESTRAINT REDUCTION INITIATIVE
       EXPENDITURES AND CLAIMED FEDERAL SHARE

                                               Claimed
       State          Total         State      Federal
    Fiscal Year   Expenditures      Share       Share
    1996–1997        $169,643      $101,786      $67,857
    1997–1998         182,990        80,876      102,114
    1998–1999         277,849       132,008      145,841
    1999–2000         275,558       137,779      137,779
    2000–2001         320,974       160,487      160,487
    2001–2002         347,806       173,903      173,903
    2002–2003         405,803       202,901      202,902
    2003–2004         424,755       212,377      212,378
    2004–2005         425,296       212,648      212,648
    2005–2006         426,503       213,251      213,252
    2006–2007         499,096       249,548      249,548
    2007–2008         526,091       263,046      263,045
    2008–2009         551,307       275,653      275,654
    2009–2010         617,901       308,951      308,950
    2010–2011         550,357       275,179      275,178
       Total       $6,001,929    $3,000,393   $3,001,536
                                                                                                          Page 1 of 2
                   APPENDIX
                   APPENDIX B: STATE
                               STATE AGENCY
                                     AGENCY COMMENTS
                                            COMMENTS




                                    COMMONWEALTH
                                    COMMONWEALTH OF
                                                 OF PENNSYLVANIA
                                                    PENNSYLVANIA




                                            March 27, 2012



Mr. Steven Virbitsky
              Virbitsky
Regional Inspector
           Inspector General for Audit
                                 Audit Services
Department
Department of Health & Human Services
Office of Inspector
          Inspector General
Office of Audit
          Audit Services, Region III
             Independence Mall West, Suite 316
150 South Independence
Philadelphia, Pennsylvania
                Pennsylvania 19106-3499

Dear Mr. Virbitsky:
         Virbitsky:

            Department of Public Welfare (DPW) has received the draft report number
       The Department                                                           number
A-03-11-00209 entitled, "Pennsylvania
A-03-11-00209            "Pennsylvania Claimed Medicaid Administrative
                                                            Administrative Costs for
Provider Training."
Provider  Training." The objective
                         objective of this audit was to determine
                                                        determine whether
                                                                  whether the state
agency
agency complied with federal requirements when it claimed Medicaid .administrative
                                                                        administrative
costs for the Pennsylvania Restraint Reduction Initiative.

Office
Office of
       of Inspector
          Inspector General
                      General (OIG) Recommendation:
                                        Recommendation: We recommend that the State
agency refund $3,001,536
agency          $3,001,536 in Federal funds for unallowable
                                                   unallowable Initiative costs, refund the
Federal share of unallowable Initiative costs claimed after our audit period, and
discontinue all future claims of Initiative costs.
discontinue

Department of
Department       of Public
                    Public (DPW) Response:
                                  Response: The Pennsylvania
                                                    Pennsylvania Restraint Reduction
Initiative (PARRI) is a program designed to assist nursing facilities to develop strong
physical, medical
            medical and chemical restraint reduction processes. This program
emphasizes individualized
emphasizes      individualized assessment
                               assessment of nursing home residents in  in order
                                                                           order to find safe
alternatives
alternatives to physical restraints. This initiative is directed by a task force which is
             individuals from the Centers for Medicare
staffed by individuals                        Medicare and Medicaid Services, the
Pennsylvania
Pennsylvania Department
                  Department of Public Welfare, the Pennsylvania
                                                      Pennsylvania Department
                                                                    Department of Health,
      representatives from nursing homes.
and representatives

      continues to believe these activities are directly related to the administration
DPW continues                                                           administration of the
Medicaid program
          program and are thereby allowable. Since its inception, this program has
greatly reduced the number
                    number of restraints utilized in Pennsyivania's
                                                     Pennsyivania's nursing homes as
measured by the Centers for Medicare and Medicaid Services' quality measures.




                                DEPUTY SECRETARY FOR ADMINISTRATION
                                                     ADMINISTRATION

  DEPARTMENT
  DEPARTMENT OF PUBUC WELFARE   I   P.O. BOX 2675.
                                             2675. HARRISBURG,
                                                   HARRISBURG, PA 17105
                                                                  17105   I   717.787.3422
                                                                              717.787.3422   I   www.dpw.state.pa.u5
                                                                                                 www.dpw.state.pa.u5
                                                                                              Page 2 of 2


Mr. Steven
Mr. Steven Virbitsky
           Virbitsky                           -2-
                                                -2­



       Thank
       Thank you
               you for
                    for the
                         the opportunity
                             opportunity toto respond
                                               respond to
                                                        to this
                                                            this draft
                                                                 draft audit
                                                                       audit report.
                                                                              report. IfIf you
                                                                                           you have
                                                                                               have
questions
questions or
           or concerns
              concerns regarding
                           regarding this
                                      this response,
                                            response, please
                                                       please contact
                                                                 contact David
                                                                          David R.R. Bryan,
                                                                                     Bryan, Audit
                                                                                               Audit
Resolution Section,
Resolution  Section, atat (717)
                           (717) 783-7217
                                 783-7217 or  or via
                                                 via email
                                                     email at
                                                            at davbryan@pa.gov.
                                                               davbryan@pa.gov.

                                                Sincerely,
                                                Sincerely,


                                              ~cJ!~.
                                              qLcJ!~'
                                                Karen
                                                Karen K.
                                                      K. Deklinski
                                                         Deklinski
                                                Deputy
                                                Deputy Secretary
                                                       Secretary for
                                                                   for Administration
                                                                       Administration

c:
c:      Mr. Robert
            Robert Baiocco, Audit
                            Audit Manager
                                  Manager
